<html>
<title> - SERBIA'S LEADERSHIP OF THE OSCE</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                    SERBIA'S LEADERSHIP OF THE OSCE

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 25, 2015

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 114-1-1]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                   Available via http://www.csce.gov

                   
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-130 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001














            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,    ROGER F. WICKER, Mississippi,
Chairman                             Co-Chairman
ALCEE L. HASTINGS, Florida           BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama          JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas            RICHARD BURR, North Carolina
STEVE COHEN, Tennessee               JEANNE SHAHEEN, New Hampshire
JOSEPH R. PITTS, Pennsylvania        TOM UDALL, New Mexico
LOUISE McINTOSH SLAUGHTER,           SHELDON WHITEHOUSE, Rhode Island
New York


                     EXECUTIVE BRANCH COMMISSIONERS

                          Department of State
                         Department of Commerce
                         Department of Defense

                                  [ii]

















                    SERBIA'S LEADERSHIP OF THE OSCE

                              ----------                              

                           February 25, 2015
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Alcee L. Hastings, Ranking Member, Commission on Security 
  and Cooperation in Europe......................................     3
Hon. Benjamin L. Cardin, Ranking Member, Commission on Security 
  and Cooperation in Europe......................................     3
Hon. Joseph R. Pitts, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     4
Hon. Steven Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    10

                               WITNESSES

His Excellency Ivica Dacic, Chairperson-in-Office of the OSCE, 
  First Deputy Prime Minister and Minister of Foreign Affairs, 
  Republic of Serbia.............................................     5

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    14
Prepared statement of Hon. Roger Wicker..........................    15
Prepared statement of Ivica Dacic................................    16

                                 [iii]

 
                    SERBIA'S LEADERSHIP OF THE OSCE

                              ----------                              


                           February 25, 2015

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 2:40 p.m. in room 2200, Rayburn 
House Office Building, Washington, DC, Hon. Christopher H. 
Smith, Chairman, Commission on Security and Cooperation in 
Europe, presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Alcee L. 
Hastings, Ranking Member, Commission on Security and 
Cooperation in Europe; Hon. Benjamin L. Cardin, Ranking Member, 
Commission on Security and Cooperation in Europe; Hon. Joseph 
R. Pitts, Commissioner, Commission on Security and Cooperation 
in Europe; and Hon. Steve Cohen, Commissioner, Commission on 
Security and Cooperation in Europe.
    Witnesses present: Ivica Dacic, Chairperson-in-Office of 
the OSCE, First Deputy Prime Minister and Minister of Foreign 
Affairs, Republic of Serbia.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    The Commission will come to order, and good afternoon to 
everybody. I want to welcome everyone joining us this 
afternoon, especially to His Excellency, First Deputy Prime 
Minister and Minister of Foreign Affairs Ivica Dacic, who is 
also the Chairman-in-Office for the OSCE.
    Your chairmanship this year of the Organization for 
Security and Cooperation in Europe (OSCE) comes at a moment of 
tragedy, of tremendous human suffering in the region. One OSCE 
member, the Russian Government, is tearing the heart out of a 
neighboring member, as we all know, Ukraine.
    Today there are more than 5,600 dead and almost 1.5 million 
internally displaced persons in Ukraine, with no end in sight. 
Russian weapons, special forces and all sorts of shady Russian-
led mercenaries, proxies and criminal gangs are creating vast 
ill-defined and constantly shifting zones of outright war, 
lower-level conflict and chaos.
    These zones are home to millions of men, women and children 
who live there, or at least try to. Only a few days ago, Bishop 
Shevchuk, patriarch of the Ukrainian Catholic Church, called it 
the greatest humanitarian catastrophe in Eastern Europe since 
the end of World War II.
    Your Excellency, we will look forward to hearing from you 
today about what the OSCE, under your chairmanship, proposes to 
do to respond to the humanitarian needs--of course, some of 
this you're already doing--and to the Russian aggression. We'll 
be especially interested to hear about the special monetary 
mission and the Minsk agreements.
    Although the latest Minsk agreements were signed only two 
weeks ago, there are already serious violations. For example, 
last week the people of the rail town Debaltseve were subject 
to shelling and their city was captured, in violation of the 
Minsk agreements. Russia and its proxies must adhere to the 
Minsk agreements and immediately stop all cease-fire 
violations, allow OSCE monitors access to where they need to 
be, and withdraw heavy weapons from the front lines.
    Understanding that the OSCE is a consensus organization, 
meaning that the Russian Government has an effective veto over 
many significant actions, we believe the OSCE is still able and 
responsible to speak the truth about the conflict to find ways 
to mitigate it and to help the people of Ukraine.
    Our government will support you in this, I can assure you. 
They already are. And certainly the Co-Chairman, Roger Wicker, 
Ranking Senator Ben Cardin, who is here and was in Ukraine 
several months ago--all of us together will do everything we 
can to support you, Mr. Chairman.
    I look forward to also hearing about fighting human 
trafficking and anti-Semitism, issues that we discussed when we 
met last week at the Winter Meeting of the OSCE Parliamentary 
Assembly. In my capacity as the OSCE Parliamentary Assembly 
Special Representative for Human Trafficking Issues, I hope to 
be able to work with you and to update internal OSCE 
regulations so that, ``No activities of the OSCE executive 
structures, including contracts for goods and services, 
contribute to any form of trafficking in persons.'' That was 
agreed on, as you know, at the Kyiv ministerial decision in 
2013. I look forward to the support of the Serbian chairmanship 
to ensure institutional commitment from the OSCE that matches 
the magnitude of the challenge we face in combating 
modern-day slavery.
    To speak for a moment about domestic issues in Serbia, I 
know that we spoke about this the other day. But it is 
important that we all take a lead--whether it be in the United 
States or in Serbia or anywhere else--to combat human 
trafficking.
    Again, I recommend that you and your staff look very 
carefully at the Trafficking in Persons (TIP) Report put out by 
the U.S. Department of State. It is a very fine statement of 
what is actually going on, on the prevention side, the 
prosecution side of traffickers, and the protection for the 
victims.
    We also look forward to working with you on implementing 
the recommendations of the Berlin +10 Conference, to make sure 
that the escalating anti-Semitism that is happening throughout 
Europe, and really throughout the world, is combated as 
robustly as humanly possible. I'd like to now yield to Mr. 
Hastings.

HON. ALCEE L. HASTINGS, RANKING MEMBER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Chairman, in light of time I'd like to welcome our 
presenter, but I have to go to the Rules Committee shortly, so 
I'll defer to Senator Cardin and look forward to hearing from 
our witness.

HON. BENJAMIN L. CARDIN, RANKING MEMBER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Thank you, Mr. Chairman. Mr. Chair-in-Office, thank you 
very much for your commitment to the OSCE. You have major 
responsibilities in Serbia, and yet you find time to use your 
leadership to help the OSCE. We are very appreciative of that.
    I apologize, because I'm not going to be able to stay very 
long. We have a major problem on the floor of the United States 
Senate dealing with the funding of our homeland security, but I 
wanted to be here to underscore the bipartisan support for the 
Helsinki Commission and the OSCE and the bicameral support, the 
Senate and the House, in the work of the OSCE and the Helsinki 
Commission.
    All three baskets are critical at this time. Congressman 
Smith mentioned the challenge we have on security with the 
Russian incursion into Ukraine, taking over Crimea and the 
problems in eastern Ukraine. It doesn't end there; Russian 
incursions in Georgia and their interference in Moldova are 
fundamental challenges to the principles of the OSCE and must 
be one of your highest priorities.
    On the economic and environmental front, we have challenges 
with energy; we have global climate issues. You'll have a full 
opportunity to advance your regional interests in the economic 
and environmental side. On human rights, which has really been, 
I think, a hallmark of the OSCE, we are proud of the work that 
the U.S. Helsinki Commission has done. I thank Chairman Smith 
for his commitment to ridding the world of modern-day slavery 
and trafficking in persons, and his role as an OSCE PA special 
representative in that regard.
    We are proud of the work the OSCE has done on tolerance and 
the three personal representatives of the chair that deal with 
the tolerance agenda. We are proud of the initiatives on 
transparency to deal with corruption, including in the 
extractive industries. And we are pleased of the efforts that 
have been made to deal with individual human rights violators, 
which we call the Magnitsky sanctions here in our country. All 
of these initiatives have been worked under the Helsinki 
Commission and the OSCE.
    We strongly support the work of the Office of Democratic 
Institutions and Human Rights (ODIHR) and look forward to the 
advancement of the human rights issues. The OSCE monitoring 
missions are critically important to regional security. And the 
election monitoring is a critical function in making sure that 
we have free and fair elections.
    Mr. Chairman, I was last week in Central America. I had a 
chance to meet with some that will be involved in Panama, where 
the Summit of the Americas will take place in April under the 
auspices of the Organization of American States (OAS). OAS, 
like OSCE, is a regional organization that operates by 
consensus. And I must tell you, they were envious of the 
effectiveness of OSCE versus OAS. I tried to tell them about 
the bureaucracy in Vienna, but they still felt that we had an 
advantage.
    There's an interesting difference between the OSCE and the 
OAS. That is the parliamentary dimension. We have strong 
parliamentarian interests in the work of the OSCE, which I 
think has paid major dividends to the effectiveness of the 
organization. I congratulate Representative Alcee Hastings for 
being the president of the Parliamentary Assembly and his 
leadership in the Mediterranean partners; Representative Chris 
Smith, who's had a special position in regards to trafficking; 
Representative Robert Aderholt, who was the vice president; 
Senator Roger Wicker, who's taken on a leadership position; and 
others. So we think you should utilize the fact that 
parliamentarians are there to help implement the policies of 
the OSCE.
    And then lastly, let me mention that every chair-in-office 
brings to that position a unique opportunity because of the 
country that you come from. Serbia is in a critical position to 
help us resolve some long-standing problems within the OSCE 
region. Under your chairmanship, we hope we can advance the 
long-standing concerns in Bosnia and Kosovo. It would be a 
major accomplishment during your chairmanship to move these 
issues forward.
    Lastly, as you know, the Helsinki Commission is famous for 
mentioning individual cases. We think that by mentioning 
individual cases, we really do advance the principles of the 
OSCE. In Serbia's case, the unresolved accountability for the 
Bytyqi brothers massacre needs to be resolved. And we would 
urge you to give this matter prompt and immediate attention to 
bring those responsible to justice for this tragedy.
    Bottom line, we're here to work with you and we very much 
appreciate you taking the time to meet with our Commission.
    Mr. Smith. Senator Cardin, thank you very much for your 
strong statement and for your leadership. I'd like to now yield 
to Representative Joe Pitts.

HON. JOSEPH R. PITTS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Thank you, Mr. Chairman, for holding this important hearing 
on Serbia's leadership of the OSCE. And I'd also like to thank 
Foreign Minister Dacic for your attendance on behalf of your 
government. I think the topic warrants a representative such as 
yourself. I thank you for making the journey and appearing 
before us.
    It is a real testament to the OSCE, as well as to the 
Serbian Government following its transition from the Milosevic 
regime, that we are in the position to hold this meeting. 
Serbia's Chairmanship reflects the organization's commitment to 
democratic principles and processes, and reflects a sincerity 
in respecting the rights of its member states. Furthermore, in 
many ways Serbia has reciprocated this respect via its 
cooperative approach to the OSCE field mission within its 
territory. This juxtaposes greatly with the other member states 
that also possess field missions.
    Our respective governments have much to work on bilaterally 
as well as in the multinational framework of the OSCE; however, 
I am very hopeful that the chairmanship can yield progress on 
both fronts--redress for past incidents against Americans, 
American interests, as well as independence of the media, the 
rights of minorities, victims of trafficking are some of the 
issues that deserve considerable attention from the Serbian 
Government.
    Of profound importance is Serbia's unique role it can play 
as a mediator between the Russian Federation and the rest of 
the OSCE, as well as its experience in addressing frozen 
conflicts. Serbia has the opportunity of playing an important 
part in addressing the crisis both the European Union and OSCE 
find itself in with respect to Russia's continued actions that 
violate the Helsinki Final Act.
    Specifically, I believe Serbia must effectively demonstrate 
to Russia that the inviolability of Europe's borders is not 
something to be bargained or negotiated and that its 
involvement in Ukraine does not have any real European 
similarity or symmetrical example. It's a violation unlike any 
since the end of World War II. I've been encouraged with the 
commitment to addressing the crisis thus far and believe that a 
great work can be accomplished with the help of Serbia's 
leadership.
    So I look forward to the addressing of these issues at this 
hearing and as our governments continue to work together. I 
yield back, Mr. Chairman.
    Mr. Smith. Thank you very much, Commissioner Pitts. It is 
really a high honor to welcome Chairman-in-Office Dacic. Just 
very briefly, without objection, your full biography will be 
made a part of the record. You are a man with a great deal of 
experience and expertise. Married with two children. You've 
served as--and I would remind my colleagues--a member of the 
Socialist Party of Serbia since its foundation in 1991. In 
2006, you served as president of the party, which was reformed 
under your leadership into a modern party of the center-left. 
You've been a member of several parliaments at the republican 
and federal levels, first elected in 1982 to the Citizen's 
Chamber of the Federal Assembly of the Federal Republic of 
Yugoslavia. You've worked in many capacities, including as a 
representative to the Parliamentary Assembly for the Council of 
Europe. You also have served as prime minister and minister of 
interior. And apart from politics, you were also a great 
sportsman and served as the president of the Sports Association 
of Serbia, vice president of the Yugoslav Olympic Committee and 
the president of the Belgrade Basketball Club. So you're a very 
competitive guy. We welcome you to the Commission and look 
forward to your statement.

 IVICA DACIC, CHAIRPERSON-IN-OFFICE OF THE OSCE, FIRST DEPUTY 
  PRIME MINISTER AND MINISTER OF FOREIGN AFFAIRS, REPUBLIC OF 
                             SERBIA

    Mr. Dacic. Thank you. Thank you, Mr. Chairman. Mr. Smith, 
Mr. Cardin, Mr. Hastings, Mr. Pitts, ladies and gentlemen, 
thank you for the invitation to address your Commission.
    I am honored to have the opportunity to discuss European 
security and the priorities of the Serbian chairmanship for the 
Organization for Security and Cooperation in Europe with 
members of the United States Congress. I would like to 
acknowledge the important role that the Helsinki Commission 
plays within the OSCE. We are also grateful for the support and 
cooperation of the U.S. Department of State across the spectrum 
of the organization's work.
    The active engagement of the United States within the OSCE 
is critical to the organization's effectiveness. Indeed, 
America is one of our anchors. It is a strong promoter of the 
OSCE values and commitments. It is also the largest contributor 
to the overall OSCE budget and a leading supporter of the 
Special Monitoring Mission to Ukraine, both in terms of 
financial support and personnel. Your country's steadfast 
support for the OSCE is deeply appreciated.
    This year, as you know, is the 40th anniversary of the 
signing of the Helsinki Final Act. When Serbia agreed to serve 
as OSCE chairmanship in 2015, we expected we would be 
celebrating these fundamental principles of security. Instead, 
we have seen them blatantly violated. The dramatic developments 
in Europe over the past year are sharp reminders that both our 
security and the fundamental values of democracy and human 
rights be constantly defended.
    Serbia's Chairmanship of the OSCE coincides with the worst 
crisis of European security since the end of the Cold War. The 
crisis in and around Ukraine dominates security considerations 
in Europe, but its impact is far greater. Mistrust and 
divisions, confrontational policies and zero-sum logic are 
undermining the cooperative approach to security that is at the 
heart of the OSCE comprehensive body of commitments and 
principles.
    The current crisis has highlighted the enduring strengths 
and advantage of the OSCE as the organization best suited to 
bridging growing divides and facilitating cooperative 
solutions. Its response to the crisis has once again 
demonstrated the organization's relevance to European security.
    The OSCE has been continuously engaged in trying to find a 
diplomatic solution to the crisis in and around Ukraine. 
Indeed, the OSCE is the only regional organization that brings 
all the key stakeholders to the table. We are keeping critical 
lines of communications open and finding opportunities for 
joint action.
    The Serbian Chairmanship is doing its utmost to continue 
these efforts in an impartial and reliable manner. We recognize 
that both the OSCE and European security are at a critical 
juncture. Our highest priority is to protect the inclusive and 
cooperative nature of the OSCE's work and to prevent the crisis 
from escalating into a larger confrontation. Today the whole 
world is watching Ukraine. The OSCE is also in the global 
spotlight because of its key role in monitoring the ceasefire 
and the withdrawal of troops and heavy weapons.
    The ceasefire is fragile, but it seems to be largely 
holding. I have repeatedly called on all parties to uphold the 
terms of the September 2014 Minsk Protocol and Memorandum and 
to fulfill their responsibilities under the package of measures 
for implementing the Minsk documents that was recently agreed 
within the framework of the Trilateral Contact Group.
    The OSCE, and in particular our Special Monitoring Mission 
to Ukraine, is doing its part to facilitate the ceasefire 
process and all other efforts to restore stability and pave the 
way for reconstruction and reconciliation. The Special 
Monitoring Mission has proved to be a unique and invaluable 
asset in terms of the international response to the crisis. 
However, it is an unarmed civilian mission carrying out what 
amounts to peacekeeping operation.
    The Serbian Chairmanship will make every effort to help 
restore peace in Ukraine and to rebuild trust and confidence 
across the OSCE region. Our own recent past demonstrates that 
despite many difficulties, we can set a positive agenda for the 
future, focused on cooperation and reconciliation. Serbia 
brings to table good relations with all the key stakeholders. 
We are making every effort to serve as an honest broker and use 
our leadership role to utilize the OSCE toolbox impartially and 
transparently.
    However, we have a shared responsibility, but especially 
the key stakeholders, to engage in dialogue and to create 
conditions for cooperation and compromise so that we can find a 
constructive way forward together. But please do not 
misunderstand me. I do not mean we should compromise our norms 
and principles. By the contrary, we must reaffirm and 
strengthen them and make them harder to violate.
    Ladies and gentlemen, terrorism is without a doubt a top 
concern around the globe today. In recent weeks in the OSCE 
region, we have seen horrific attacks in Paris and Copenhagen. 
I offer my sincere condolences to the families of the victims. 
As the threat from terrorism and the related phenomenon on 
foreign terrorist fighters continues to grow, we must be united 
and determined in our condemnation of all forms of terrorism. 
We must also unify our societies to resist attempts to create 
divisions on the basis of religion, ethnicity, race or culture.
    The Serbian Chairmanship will give special focus to 
countering violent extremism and radicalization that lead to 
terrorism, including radicalization of youth and the foreign 
fighter phenomenon. In July, we will host an expert-level OSCE-
wide counterterrorism conference in Vienna that will focus on 
foreign terrorist fighters.
    Ladies and gentlemen, allow me now to turn to priorities--
to the priorities of the Serbian OSCE chairmanship. Supporting 
the peace process in Ukraine is, of course, our main priority. 
But there are other important challenges in the OSCE region 
where the OSCE has a role to play that must not be overshadowed 
by the current crisis. Chief among them is the resolution of 
protracted conflicts in the OSCE region through agreed formats.
    In this regard, I would like to recognize the efforts of 
Ambassador James Warlick, the U.S. Co-Chair of the OSCE Minsk 
Group, and Deputy Assistant Secretary Eric Rubin, the U.S. 
representative in the Geneva Discussions. The agreed formats 
should meet regularly and without obstruction. And high-level 
contacts between the parties should continue. But I believe 
that we must also try to move beyond the status quo and take 
some small but concrete steps to increase trust and confidence 
between the parties.
    Ladies and gentlemen, I am convinced that the OSCE has 
benefited from the continuity provided by the consecutive 
chairmanships of Switzerland and Serbia. The Serbian 
Chairmanship will continue to work on the basis of our Joint 
Work Plan in all three dimensions, giving special focus to 
certain topics of interest.
    In addition to counterterrorism issues, our first dimension 
activities will focus on improving cooperation in confronting 
transnational organized crime, including its links to 
trafficking in human beings and irregular migration; security 
sector governance and reform; and addressing emerging 
cybersecurity threats. We appreciate the continued commitment 
and leadership of the U.S. Chair of the Informal Working Group, 
as it focuses on developing a new set of cybersecurity 
confidence-building measures. The Serbian Chairmanship also 
supports continued dialogue on conventional arms control, with 
the hope that it can lead to progress in updating and 
modernizing our existing instruments, including confidence- and 
security-building measures, like the Vienna document.
    In the second dimension, we will focus on issues that 
coincide with our national priorities, including combating 
corruption, water governance and disaster risk reduction and 
preparedness. This year's Economic and Environmental Forum will 
be devoted to water governance of the OSCE area, increasing 
security and stability through cooperation. The Economic and 
Environmental Dimension Implementation Meeting, which will take 
place in Vienna in October, will focus on the fight against 
corruption. We look forward to strong U.S. participation at 
both of these events.
    Ladies and gentlemen, the Helsinki Final Act was 
revolutionary for its time in large part because it took the 
human dimension of security into account. Today it remains our 
duty and responsibility to highlight and protect the universal 
values of human rights, tolerance and nondiscrimination. OSCE 
participating States must continuously strive to strengthen the 
implementation of the human dimension commitments.
    This year, we will place special emphasis on strengthening 
the rule of law, freedom of expression and freedom of the 
media, including the safety of journalists and freedom of 
assembly and association. The recent tragic events in Paris and 
Copenhagen underscore the importance of protecting freedom of 
expression. So our plan to organize an event devoted to the 
safety of journalists is especially relevant. We will also 
focus on the protection of the rights of persons belonging to 
national minorities and promotion of tolerance and 
nondiscrimination.
    The OSCE agenda is becoming increasingly cross-dimensional. 
We will integrate the perspectives and concerns of women and 
youth in our activities, particularly at the grassroots level. 
Because civil society can and should play a crucial role in 
protecting human rights and creating policies in our 
participating States, we will also strengthen efforts to engage 
civil society in the organization's work.
    Ladies and gentlemen, Serbia will strive to intensify 
efforts to advance regional cooperation and reconciliation in 
the Western Balkans. Our region has benefited significantly 
from the presence of OSCE field operations and their efforts to 
assist host countries to implement the OSCE commitments in all 
three dimensions of security. My country has directly benefited 
from the OSCE's work, and we know from our own experience the 
important contribution that OSCE field operations can make.
    Ladies and gentlemen, the current crisis of European 
security highlights the importance of the OSCE as a security 
organization. Its response to the situation in Ukraine has 
shown that the OSCE can deliver. It reminds us that our 
comprehensive concept of security also includes the politico-
military dimension. And we should support this aspect of the 
organization's work as firmly as we support its work in the 
human dimension. I should also point out that the OSCE provides 
very good value for very little money. Imagine how much more it 
could do with additional resources. Its work would have an even 
deeper impact.
    Ladies and gentlemen, as we prepare to commemorate the 40th 
anniversary of the Helsinki Final Act this year, we need to 
find ways to rebuild trust and confidence and to re-engage in 
joint efforts to strengthen security across the whole OSCE 
region. We must keep a close eye on the broader strategic 
perspective of European security. And we must continue to 
uphold our common values and principles, as enshrined in the 
Helsinki Final Act and other landmark OSCE documents.
    I strongly believe that the OSCE has a crucial role in the 
overall European security architecture as an inclusive platform 
for dialogue, building trust and bridging the growing East-West 
divide. This is captured in the motto of the Serbian 
chairmanship: Rebuilding trust and confidence in order to 
create a positive agenda for the future. And we will spare no 
effort in pursuing this goal. In this regard, I welcome the 
creation of the Panel of Eminent Persons on European Security 
as a common project which was launched in December at the 
annual OSCE Ministerial Council.
    Mr. Chairman, President Obama has reaffirmed the centrality 
of European security to American interests and national 
security. The OSCE provides a unique format through which the 
United States can contribute to European security. The OSCE is 
broadly inclusive, providing an increasingly important bridge 
between the Euro-Atlantic and the Euro-Asian regions.
    I would like to thank the United States for its firm 
commitment to the OSCE. I hope that your country will continue 
to make the most of the OSCE's inclusive platform for dialogue 
and joint action. Thank you for your attention and support. I 
look forward to your questions and comments.
    Mr. Smith. Chairman Dacic, thank you for your very, very 
expansive vision, for presenting it to the Helsinki Commission 
and, by extension, to the U.S. Congress. We will make this 
record available to our colleagues and put your full statement 
into the Congressional Record.
    Mr. Hastings has a hearing that he has to attend that began 
at 3:00, but I'd like to yield to him if you'd like to say a 
word or two.
    Mr. Hastings. Just to thank you. And I know how difficult 
being OSCE Chair-in-Office is. You have our full support, Mr. 
Chairman.
    Mr. Dacic. Thank you very much.
    Mr. Hastings. I look forward to seeing you in Vienna.
    Mr. Dacic. Thank you very much.
    Mr. Smith. I would like to note that Ambassador Michael 
Kirby, U.S. ambassador to Serbia, is here with us today. And I 
want to thank him for--Ambassador Kirby, thank you for being 
here. And there are many other diplomats and friends of the 
OSCE--
    Mr. Dacic. Our ambassador in United States?
    Mr. Smith. Yes. Mr. Ambassador, thank you.
    Mr. Dacic. Your ambassador.
    Mr. Smith. Welcome. Just a few questions, Mr. Chairman, and 
then I'll yield to my good friend, Mr. Cohen, and then to 
Commissioner Pitts.
    The Special Monitoring Mission obviously carries with it a 
number of dangers for those who have been deployed there. We 
know what happened to those--maybe because we have a vote, 
we'll all ask our questions and then as best you can concisely 
answer, because we are now being called to the floor for 
another set of votes, and I apologize for that. But the 
monitoring mission, we know what happened in Crimea when the 
OSCE folks were held and restrained. If you could perhaps 
elaborate on that mission: Does it need to be augmented? Is it 
about the right size?
    I asked you at the meeting in Vienna about the issue of 
ensuring that there are eyes and ears when it comes to human 
trafficking. As we all know, traffickers prey on 
disenfranchised persons. And we know there are at least a 
million and a half IDPs who very quickly could become exploited 
and trafficked.
    I'd like to yield to Mr. Cohen. Maybe he can ask a few of 
his questions, then Mr. Pitts.

  HON. STEVE COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Thank you, Mr. Chair. I had the opportunity to visit your 
nation. Ambassador Kirby hosted a dinner at his home and the 
Prime Minister was with us. We had an excellent discussion. I 
learned of his interest in basketball; I know you have that 
too.
    Mr. Putin had just kind of disregarded Serbia with the 
pipeline situation, and I think he showed disrespect to your 
nation. Russia has violated every precept and guidance of the 
OSCE during these past few years; these are fundamental 
principles. How does Russia continue to operate in the OSCE? 
And can it in the future with its actions in Ukraine? Being 
that time is of the essence, I will make that my question. 
Basically: Russia, Putin, human rights, anti-Semitism, 
violation of principles and inclusion.
    Mr. Smith. Commissioner Pitts?
    Mr. Pitts. Thank you, Mr. Chairman. I too am concerned 
about that issue of Ukraine and the Crimea, the crisis that 
continues to be the focus of OSCE's work. How will your 
chairmanship work to resolve the crisis, number one? And two, 
Crimea's a part of Ukraine; how will the Serbian Chairmanship 
engage to address the ongoing violation of OSCE commitments by 
the Russian Federation in its invasion and occupation of 
Crimea? That's my concern.
    Mr. Smith. And finally, Mr. Chairman, because, again, we 
are running out of time and that's because of the floor votes, 
if I could ask you--you have suggested that you're going to 
have conferences on violence and persecution against Christians 
and Muslims. I think that is an extremely important initiative 
for Serbia to be initiating.
    I remember raising in this room that time and time again in 
Kosovo, so many churches were not only desecrated but 
decimated. There needed to be a response that was far more 
robust than there was. No matter what the faith is--Judaism, 
Christianity or Islam--people should be able to live out their 
faith freely and in an unfettered manner. I applaud you for 
your vision to have such conferences. Perhaps you might want to 
speak to that as well.
    Mr. Dacic. [Through interpreter.] I am going to speak to 
you in Serbian and we will have interpretation into English, 
just to avoid making any mistakes because each and every word 
counts.
    I would like to thank the United States of America for the 
support it has been providing to the OSCE. And our chairmanship 
is based on the principles that we are intending to consult 
around all the topics with all the major key player and 
stakeholders within the OSCE.
    The OSCE Troika comprises at the time being Switzerland, 
Serbia and Germany, which is going to hold the next 
chairmanship. Our chairmanship priorities have been discussed 
in London, in Paris, in Berlin, in Brussels, in Moscow, but 
also in Kyiv--and today and tomorrow, here in Washington as 
well. Today we have a hearing here in the Congress and tomorrow 
I will have a meeting with the U.S. Secretary of State, Mr. 
Kerry.
    Two days ago in New York, I had a meeting with my 
counterparts--Minister of Foreign Affairs of the Russian 
Federation and also Minister of Foreign Affairs of Ukraine, 
particularly around the topics that you have just mentioned--
the new mission--actually, the extension of the mandate of the 
existing Special Monitoring Mission. We were able to reach an 
agreement for this mission to have extended its mandate, which 
was at the time 6 months--to extend it to the full 12 months, 
and of course, to uphold everything that has been agreed in 
Minsk.
    The mission of the OSCE will play a verification role. At 
the political level, it will also play a mediation or brokering 
role. My special representative within the Trilateral Contact 
Group, Swiss Ambassador Heidi Tagliavini, jointly with the 
Special Monitoring Mission, headed by the Turkish Ambassador 
Mr. Apakan will observe and monitor the ceasefire, the 
withdrawal of heavy weapons, but also the restoration and 
maintaining of all of these issues which have the social and 
economic component, such as the supply of gas, electricity, 
incomes, salaries, pensions, and so on, but also to discuss 
about the local elections--to coordinate the discussions with 
the Ukrainian authorities in regard to local elections and 
constitutional reforms and control of borders as well.
    All in all, you know that all the decisions which are 
reached within the OSCE are reached by consensus. We are 
investing extreme and maximal efforts. Regardless of the 
diverging opinions and standpoints, I have to say that we are 
effective in the operation on the ground. We are interested in 
principles. This means that Serbia, in its chairmanship 
capacity, has a fair and objective role as a mediator and has a 
brokering role in these negotiations, which is, of course, 
based on the principles set out in the Helsinki Final Act.
    Serbia has also been given support from the 15 member 
states of the Security Council during its chairmanship. Myself, 
as the Chairperson-in-Office, but also the Secretary General of 
the OSCE, stand ready to come here and to brief you on any 
topic of your interest, including the topics which you have 
raised--the fight against trafficking human beings, anti-
Semitism, anti-Christianity notions and all other issues. In 
line with this, we would like to continue in the same fashion. 
I also agree with you that the role of the parliamentarians is 
of crucial importance for our work. This also implies the work 
of the Parliamentary Assembly of the OSCE.
    Of course, in regard to our bilateral relations, since I'm 
here with you in Congress, Serbia wishes the best possible 
relations with the United States. Serbia wishes to restart 
these relations. A hundred years ago at the end of the First 
World War on the decree of President Wilson, a Serbian flag was 
mounted on the White House as a sign--as a sign of the support 
and the heroic fight of the Serbian nation and people in the 
First World War. We had extremely difficult periods in our 
bilateral relations, but I think that it is in our common 
interests for Serbia to be the factor of stability and peace 
within the region.
    Serbia was able to transform itself from a problematic 
country. Now it is a country which is chairing the OSCE. I 
would like to urge you to communicate much more frequently with 
Serbia, and to pay as many visits as you can to Serbia. And my 
friend, your ambassador to Serbia, Mr. Kirby, I constantly 
repeat to him, that there are very few people in Serbia who 
remember the last visit of your President to Serbia. They say 
that this was President Ford. I don't recall this data, so I 
think that this opportunity could be utilized for rebuilding of 
our good relations.
    Mr. Smith. Mr. Chairman, thank you so very much, again. We 
have, all of us, many more questions, but the bell has rung and 
matter of fact we're out of time to vote. But I do look forward 
to, myself, returning to Belgrade. I've been there before for a 
visit. I look forward to working with you and your staff during 
your 
chairmanship-in-office. And again, thank you for the privilege 
of receiving your testimony. The hearing is adjourned.
    Mr. Dacic. Thank you.
    [Whereupon, at 3:27 p.m., the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Welcome to everyone joining us this afternoon--especially to His 
Excellency First Deputy Prime Minister and Minister of Foreign Affairs 
Ivica Dacic.
    Your Chairmanship this year of the Organization for Security and 
Cooperation in Europe (OSCE) in 2015 comes at a moment of tragedy, of 
tremendous human suffering, in the region. One OSCE member--the Russian 
government--is tearing the heart out of a neighboring member, Ukraine.
    Today there are more than 5,400 dead and almost 1.5 million 
internally displaced persons in Ukraine--and no end in sight. Russian 
weapons, special forces, and all sorts of shady Russian-led 
mercenaries, proxies, and criminal gangs are creating vast, ill-defined 
and constantly shifting zones of outright war, lower-level conflict, 
and chaos. These ``zones'' are home to millions of men, women, and 
children who live there--or try to. Only a few days ago, Bishop 
Shevchuk, Patriarch of the Ukrainian Greek Catholic Church, called it 
``the greatest humanitarian catastrophe in Eastern Europe since the end 
of World War II.''
    Your Excellency, we will look forward to hearing from you what the 
OSCE, under your Chairmanship, proposes to do to respond to the 
humanitarian needs in Ukraine, and to the Russian aggression. We'll be 
especially interested to hear about the Special Monitoring Mission and 
the Minsk Agreements. Although the latest Minsk agreements were signed 
only two weeks ago, there are already serious violations--for example, 
last week the people of the rail town of Debaltseve were subject to 
shelling and their city was captured in violation of the Minsk 
agreements. Russia and its proxies must adhere to Minsk and immediately 
stop all cease-fire violations, allow OSCE monitors access to where 
they need to be on the ground, and withdraw heavy weapons from the 
front lines.
    Understanding that the OSCE is a consensus organization--meaning 
that the Russian government has an effective veto over many significant 
actions--we believe the OSCE is still able and responsible to speak the 
truth about the conflict, to find ways to limit it, and to help the 
people of Ukraine. Our government will support you in this, and 
certainly my Co-Chairman, Sen. Roger Wicker, and I, and our fellow 
Commissioners will do everything in our means to support you as well.
    Your Excellency, I also look forward to hearing about the fight 
against human trafficking and anti-Semitism--two issues we discussed 
briefly last week, at the Winter Meeting of the Parliamentary Assembly.
    In my capacity as the OSCE Parliamentary Assembly's Special 
Representative on Human Trafficking Issues, I hope to be able to work 
with you to update internal OSCE regulations so ``that no activities of 
the OSCE executive structures, including contracts for goods and 
services, contribute to any form of THB,'' as was agreed upon in the 
Kiev Ministerial Decision in 2013. I look forward to the support of the 
Serbian Chairmanship to ensure institutional commitment from the OSCE 
that matches the magnitude of the challenge we face with modern 
slavery.
    To speak for a moment about domestic issues in Serbia, fifteen 
years ago I authored the Trafficking Victims Protection Act, which, 
among its many provisions, mandated the State Department's Trafficking 
in Persons Report. I hope you will use that analysis to boost efforts 
to protect victims and end the scourge of human trafficking throughout 
the OSCE region.
    Fighting anti-Semitism has been a priority for the Helsinki 
Commission since 2002, when I first proposed and formed a movement to 
place this issue on the OSCE agenda--which led to the Berlin 
Declaration in 2004 and the Berlin +10 Conference last year. So we look 
forward to discussing as well vigorous implementation of the fight 
against anti-Semitism.
    Thank you, Your Excellency, for briefing the Commission this 
afternoon.

Prepared Statement of Hon. Roger F. Wicker, Co-Chairman, Commission on 
                   Security and Cooperation in Europe

    Ladies and gentlemen, I join my colleagues in welcoming His 
Excellency First Deputy Prime Minister and Minister of Foreign Affairs 
Ivica Dacic to this hearing before the Helsinki Commission. Your 
presence is an important tradition for our Commission as we work to 
formulate U.S. policy regarding the Organization for Security and 
Cooperation in Europe (OSCE).
    In 2011, Switzerland and Serbia agreed to prioritize crisis 
management capacities during their successive OSCE Chairmanships. 
Little did we know the scope of challenges to European and Eurasian 
security we would face today. The Kremlin continues to use their 
militant proxies in Ukraine to exact an even greater human toll. The 
OSCE's field operations, especially the Special Monitoring Mission, 
serves as the only existing and credible mechanism through which any 
ceasefire terms can be implemented. We should be thankful that in the 
years preceding the conflict in Ukraine, the OSCE was responsible for 
the destruction of about 16,000 metric tons of melange, a toxic rocket 
fuel component that could have fallen in to the wrong hands. \1\ In 
this sense, the OSCE has been a great insurance policy for security 
cooperation that we must continue to invest in.
---------------------------------------------------------------------------
    \1\  OSCE Melange Program Infographic: Ensuring people's security 
and environmental safety, June 26, 2014 (http://www.osce.org/fsc/
120274)
---------------------------------------------------------------------------
    Last year, I visited Georgia and Moldova as part of a Helsinki 
Commission delegation and learned firsthand about Moscow's intentions 
and designs beyond Ukraine. The OSCE is also a large part of our 
response to instability in these countries, and we need to make that 
response as effective as possible.
    I am glad, your Excellency, that in your recent speech before the 
OSCE Permanent Council you acknowledged the gravity of our security 
challenges by prioritizing ``dialogue and compromise, peaceful 
resolution of disputes, confidence-building, solidarity, responsibility 
and cooperation.'' \2\ I applaud your interest in convening further 
expert meetings on counter-terrorism and addressing foreign terrorist 
fighters, a phenomenon with impacts in and around the OSCE area. These 
are important priorities in addition to the need for reinforcing the 
OSCE's arms control instruments and confidence and security building 
mechanisms. We can't let some participating States misinterpret these 
treaties and instruments. Russia's continued refusal to meet its 
obligations under the Vienna Document, the Open Skies Treaty and the 
Conventional Armed Forces in Europe (CFE) Treaty are a part of a bigger 
picture that erodes our ability to secure Ukraine's sovereignty.
---------------------------------------------------------------------------
    \2\  Address by His Excellency Ivica Dacic, Chairperson-in-Office 
of the OSCE, at the Special Meeting of the OSCE Permanent Council, 
January 15, 2015--Vienna, Austria
---------------------------------------------------------------------------
    While I value the OSCE as a forum for European security, I also 
support the organization's efforts to promote human rights and 
democratic institutions throughout the region. Indeed, the 
comprehensive definition of security contained in the Helsinki Final 
Act includes respect for human rights and fundamental freedoms, and the 
last 40 years has shown us that greater democracy brings greater peace 
and stability across Europe. And as the OSCE Parliamentary Assembly 
asserted, at its 2014 annual session, that ``improved democratic 
practices regarding free and fair elections, adherence to the rule of 
law and respect for human rights and fundamental freedoms in the 
Russian Federation would benefit the citizens of that State but also 
contribute significantly to stability and confidence among its 
neighbours, as well as enhance security and co-operation among all the 
participating States.''
    Your Excellency, Serbia has clearly demonstrated its potential to 
lead the OSCE through a constructive relationship with the OSCE Mission 
to Serbia and efforts toward European Union membership. Serbia is not 
only a country of regional significance in the Balkans but a country 
which can advocate adherence to Helsinki Principles and OSCE provisions 
with the credibility of having overcome so many challenges in the last 
20 years.
    As this Commission has emphasized to all Chairs-in-Office we meet 
with, the chairmanship should be a model for other participating States 
regarding the implementation of OSCE commitments. I hope this hearing 
will explore how we can support each other as our countries seek to 
implement our commitments in all dimensions. I wish your chairmanship 
every success and I look forward to your testimony.

 Prepared Statement of Ivica Dacic, Chairperson-in-Office of the OSCE, 
 First Deputy Prime Minister and Minister of Foreign Affairs, Republic 
                               of Serbia

    Chairman Smith, Co-Chairman Wicker, Commissioners, Ladies and 
Gentlemen,
    Thank you for the invitation to address your Commission. I am 
honored to have the opportunity to discuss European security and the 
priorities of the Serbian Chairmanship of the Organization for Security 
and Co-operation in Europe with members of the United States Congress.
    I would like to acknowledge the important role that the Helsinki 
Commission plays within the OSCE. We are also grateful for the support 
and co-operation of the U.S. Department of State across the spectrum of 
the Organization's work. The active engagement of the United States 
within the OSCE is critical to the Organization's effectiveness. 
Indeed, America is one of our anchors. It is a strong promoter of OSCE 
values and commitments. It is also the largest contributor to the 
overall OSCE budget, and a leading supporter of the Special Monitoring 
Mission to Ukraine both in terms of financial support and personnel. 
Your country's steadfast support for the OSCE is deeply appreciated.
    This year, as you know, is the 40th anniversary of the signing of 
the Helsinki Final Act. When Serbia agreed to serve as OSCE 
Chairmanship in 2015, we expected we would be celebrating these 
fundamental principles of security. Instead, we have seen them 
blatantly violated. The dramatic developments in Europe over the past 
year are sharp reminders that both our security and the fundamental 
values of democracy and human rights must be constantly defended.
    Serbia's Chairmanship of the OSCE coincides with the worst crisis 
of European security since the end of the Cold War. The crisis in and 
around Ukraine dominates security considerations in Europe, but its 
impact is far greater. Mistrust and divisions, confrontational policies 
and zero-sum logic are undermining the co-operative approach to 
security that is at the heart of the OSCE's comprehensive body of 
commitments and principles. Twenty-five years ago in Paris, our Heads 
of State or Government declared the end of confrontation and division 
in Europe. They expressed their commitment to democracy, human rights 
and fundamental freedoms; prosperity through economic freedom and 
social justice; and equal security for all countries. The Helsinki 
process and full implementation of all commitments are at the very 
foundation of the Paris Charter. The Serbian Chairmanship is fully 
aware that it is our duty to defend what the OSCE stands for, and we 
count on your support.
    The current crisis has highlighted the enduring strengths and 
advantages of the OSCE as the organization best suited to bridging 
growing divides and facilitating co-operative solutions. Its response 
to the crisis has once again demonstrated the Organization's relevance 
to European security.
    The OSCE has been continuously engaged in trying to find a 
diplomatic solution to the crisis in and around Ukraine. Indeed, the 
OSCE is the only regional organization that brings all the key 
stakeholders to the table. We are keeping critical lines of 
communication open, and finding opportunities for joint action.
    The Serbian Chairmanship is doing its utmost to continue these 
efforts in an impartial and reliable manner. We recognize that both the 
OSCE and European security are at a critical juncture. Our highest 
priority is to protect the inclusive and co-operative nature of the 
OSCE's work, and to prevent the crisis from escalating into a larger 
confrontation. We are making every effort to rebuild confidence and 
trust among participating States and to restart our joint efforts 
toward the vision of a Euro-Atlantic and Eurasian security community. 
We are fully committed to working with the main stakeholders to restore 
peace and stability for Ukraine and its people.
    Today, the whole world is watching Ukraine. The OSCE is also in the 
global spotlight because of its key role in monitoring the ceasefire 
and the withdrawal of troops and heavy weapons. The ceasefire is 
fragile, but it seems to be largely holding. I have repeatedly called 
on all parties to uphold the terms of the September 2014 Minsk Protocol 
and Memorandum, and to fulfil their responsibilities under the Package 
of Measures for implementing the Minsk documents that was recently 
agreed within the framework of the Trilateral Contact Group. I would 
like to thank Ambassador Heidi Tagliavini, my Special Representative in 
Ukraine and to the Trilateral Contact Group, for her tireless 
commitment to helping the parties find the path towards peace.
    The OSCE, and in particular our Special Monitoring Mission to 
Ukraine, is doing its part to facilitate the ceasefire process and all 
other efforts to restore stability and pave the way for reconstruction 
and reconciliation. The Special Monitoring Mission has proved to be a 
unique and invaluable asset in terms of the international response to 
the crisis. However, it is an unarmed civilian mission carrying out 
what amounts to a peacekeeping operation. OSCE monitors are working 
under considerable operational constraints and in an extremely volatile 
environment. I salute their courage and dedication. Their safety is our 
primary concern. Depending on how the situation develops on the ground, 
we may need to reconsider the Mission's mandate.
    The Serbian Chairmanship will make every effort to help restore 
peace in Ukraine and to rebuild trust and confidence across the OSCE 
region. Our own recent past demonstrates that, despite many 
difficulties, we can set a positive agenda for the future, focused on 
cooperation and reconciliation. Serbia brings to the table good 
relations with all the key stakeholders, and we are making every effort 
to serve as an honest broker and use our leadership role to utilize the 
OSCE toolbox impartially and transparently. However, we have a shared 
responsibility--but especially the key stakeholders--to engage in 
dialogue and to create conditions for co-operation and compromise so 
that we can find a constructive way forward together. But please do not 
misunderstand me: I do not mean we should compromise our norms and 
principles. Quite the contrary--we must reaffirm and strengthen them, 
and make them harder to violate.
    Ladies and Gentlemen, terrorism is without a doubt a top concern 
around the globe today. In recent weeks in the OSCE region, we have 
seen horrific attacks in Paris and Copenhagen. I offer my sincere 
condolences to the families of the victims. As the threat from 
terrorism and the related phenomenon of foreign terrorist fighters 
continues to grow, we must be united and determined in our condemnation 
of all forms of terrorism. We must also unify our societies to resist 
attempts to create divisions on the basis of religion, ethnicity, race 
or culture. It is clear that a criminal justice response is not 
sufficient. We need to work with communities and address the deeper 
roots of the problem, and foster tolerance, nondiscrimination and 
respect for diversity.
    The Serbian Chairmanship will give special focus to countering 
violent extremism and radicalization that lead to terrorism, including 
radicalization of youth and the foreign fighter phenomenon. In all of 
these areas, we will take our human dimension commitments into account, 
and also engage closely with the OSCE Partners for Cooperation. In 
July, we will host an expert-level, OSCE-wide counter-terrorism 
conference in Vienna that will focus on foreign terrorist fighters. 
This event was announced last week at the Ministerial Meeting of the 
White House Summit on Countering Violent Extremism as one of its 
regional follow-on events. I encourage the United States to make a 
strong contribution to our conference.
    Ladies and Gentlemen, allow me now to turn to the priorities of the 
Serbian OSCE Chairmanship.
    Supporting the peace process in Ukraine is of course our main 
priority. But there are other important challenges in the OSCE region 
where the OSCE has a role to play which must not be overshadowed by the 
current crisis. Chief among them is the resolution of protracted 
conflicts in the OSCE region through agreed formats. In this regard, I 
would like to recognize the efforts of Ambassador Warlick, the U.S. Co-
Chair of the OSCE Minsk Group, and Deputy Assistant Secretary Eric 
Rubin, the U.S. representative in the Geneva Discussions. The agreed 
formats should meet regularly and without obstruction, and high-level 
contacts between the parties should continue. But I believe that we 
must also try to move beyond the status quo and take some small but 
concrete steps to increase trust and confidence between the parties. 
This could enable them to start focusing on substantive problems that 
could advance the peace process. After all, in the end, resolving the 
conflicts is the responsibility of the parties. The OSCE and key 
international players can encourage conditions to foster the necessary 
political will to support peaceful settlements.
    Ladies and Gentlemen, I am convinced that the OSCE has benefited 
from the continuity provided by the consecutive chairmanships of 
Switzerland and Serbia. The Serbian Chairmanship will continue to work 
on the basis of our Joint Work Plan in all three dimensions, giving 
special focus to certain topics of interest.
    In addition to counter-terrorism issues, our first dimension 
activities will focus on improving co-operation in confronting 
transnational organized crime, including its links to trafficking in 
human beings and irregular migration; security sector governance and 
reform; and addressing emerging cyber-security threats. We appreciate 
the continued commitment and leadership of the U.S. Chair of the 
Informal Working Group as it focuses on developing a new set of cyber-
security confidence-building measures. The Serbian Chairmanship also 
supports continued dialogue on conventional arms control with the hope 
that it can lead to progress in updating and modernizing our existing 
instruments, including confidence- and security-building measures like 
the Vienna Document. We shall co-operate closely on politico-military 
issues with this year's Chairmanships of the Forum for Security Co-
operation--Mongolia, Montenegro and Norway--and in our preparations for 
the Annual Security Review Conference.
    In the second dimension, we will focus on issues that coincide with 
our national priorities, including combatting corruption, water 
governance, and disaster risk reduction and preparedness. This year's 
Economic and Environmental Forum will be devoted to ``Water Governance 
in the OSCE Area--Increasing Security and Stability through 
Cooperation.'' The Economic and Environmental Dimension Implementation 
Meeting, which will take place in Vienna in October, will focus on the 
fight against corruption. We look forward to strong U.S. participation 
in both of these events.
    Ladies and Gentlemen, the Helsinki Final Act was revolutionary for 
its time in large part because it took the human dimension of security 
into account. Today it remains our duty and responsibility to highlight 
and protect the universal values of human rights, tolerance and 
nondiscrimination. OSCE participating States must continuously strive 
to strengthen the implementation of their human dimension commitments 
including by strengthening national institutions of human rights. The 
Serbian Chairmanship will do its utmost to support them. This year we 
will place special emphasis on strengthening the rule of law, freedom 
of expression and freedom of the media, including the safety of 
journalists, and freedom of assembly and association. The recent tragic 
events in Paris and Copenhagen underscore the importance of protecting 
freedom of expression, so our plan to organize an event devoted to the 
safety of journalists is especially relevant. We will also focus on the 
protection of the rights of persons belonging to national minorities 
and promotion of tolerance and non-discrimination.
    Recognizing that the OSCE agenda is increasingly cross-dimensional 
and that many contemporary threats to security stem in part from 
marginalization, we will strengthen efforts to be inclusive. We will 
integrate the perspectives and concerns of women and youth in our 
activities, particularly at the grass-roots level. Because civil 
society can and should play a crucial role in protecting human rights 
and creating policies in our participating States, we will also 
strengthen efforts to engage civil society in the Organization's work.
    Ladies and Gentlemen, Serbia will strive to intensify efforts to 
advance regional co-operation and reconciliation in the Western 
Balkans. Our region has benefitted significantly from the presence of 
OSCE Field Operations and their efforts to assist host countries to 
implement their OSCE commitments in all three dimensions of security. 
My country has directly benefited from the OSCE' s work, and we know 
from our own experience the important contribution that OSCE Field 
Operations can make. OSCE Field Operations are reliable partners, and 
Serbia is proud to host the OSCE in our country. OSCE Field Operations 
make a significant and constructive contribution to enhancing security 
and consolidating reform processes that make our societies stronger and 
protect the rights of our citizens. Although every region in the OSCE 
area is different, I am convinced that sharing the lessons of the 
Western Balkans more broadly would be beneficial. The current crisis of 
security in the OSCE region underscores the need for dialogue and 
reconciliation. Serbia's own experience demonstrates that it is 
possible to create a positive agenda even in the face of significant 
obstacles by adopting a pragmatic and goal-oriented approach.
    Ladies and Gentlemen, The current crisis of European security 
highlights the importance of the OSCE as a security organization. Its 
response to the situation in Ukraine has shown that the OSCE can 
deliver. It reminds us that our comprehensive concept of security also 
includes the politico-military dimension, and we should support this 
aspect of the Organization's work as firmly as we support its work in 
the human dimension. Especially when we are putting hundreds of 
civilian staff on the ground in a conflict situation, we should be able 
to offer them as much protection as possible. I hope that we can 
accelerate progress toward resolving the long-unresolved issue of the 
OSCE's lack of a legal personality. This would help us to address this 
kind of challenge.
    I should also point out that the OSCE provides very good value for 
very little money. Imagine how much more it could do with additional 
resources. Its work would have an even deeper impact.
    Ladies and Gentlemen, as we prepare to commemorate the fortieth 
anniversary of the Helsinki Final Act this year, we need to find ways 
to rebuild trust and confidence and to re-engage in joint efforts to 
strengthen security across the whole OSCE region. We must keep a close 
eye on the broader strategic perspective of European security. And we 
must continue to uphold our common values and principles as enshrined 
in the Helsinki Final Act and other landmark OSCE documents. Although 
these norms have been violated, they do not need to be reconsidered. 
Instead, they need to be reaffirmed and strengthened and made more 
difficult to undermine. We should look back to the roots of the 
Helsinki process and learn from the commitment of those Cold War-era 
leaders to work together. We should remember that we have joint 
responsibility for peace and security in Europe.
    I strongly believe that the OSCE has a crucial role in the overall 
European security architecture--as an inclusive platform for dialogue, 
building trust, and bridging the growing East-West divide. This is 
captured in the motto of the Serbian Chairmanship--``Rebuilding trust 
and confidence in order to create a positive agenda for the future''--
and we will spare no effort in pursuing this goal. In this regard, I 
welcome the creation of the Panel of Eminent Persons on European 
Security as a Common Project, which was launched in December at the 
annual OSCE Ministerial Council. I am confident that the Panel has the 
potential to generate innovative ideas that can help us recapture the 
``spirit of Helsinki.'' I look forward to its recommendations on how to 
replace the current culture of confrontation with one of co-operation 
and joint action.
    Chairman Smith,
    Co-Chairman Wicker,
    Commissioners,
    Ladies and Gentlemen,
    President Obama has reaffirmed the centrality of European security 
to American interests and national security. The OSCE provides a unique 
format through which the United States can contribute to European 
security. The OSCE is broadly inclusive, providing an increasingly 
important bridge between the Euro-Atlantic and the Eurasian regions.
    I would like to thank the United States for its firm commitment to 
the OSCE. I hope that your country will continue to make the most of 
the OSCE's inclusive platform for dialogue and joint action. Thank you 
for your attention and support.
    I look forward to your questions and comments.

    First Deputy Prime Minister and Minister of Foreign Affairs of the 
Republic of Serbia Ivica Dacic was born on 1 January 1966 in Prizren. 
After graduating from the Faculty of Political Science in Belgrade, he 
became actively involved in politics. He is married and has two 
children.
    Mr. Dacic has been a Member of the Socialist Party of Serbia (SPS) 
since its foundation in 1991. Since 2006, he has served as the 
President of the Party, which has been reformed under his leadership 
into a modern party of centre left, with a clear pro-European 
orientation. He was awarded the title of the Best European 
(Najevropljanin) in 2009 by the European Movement in Serbia for his 
contributions to Serbia's European path.
    Mr. Dacic was a Member of several Parliaments at republican and 
federal levels--he was first elected in 1992 to the Citizens' Chamber 
of the Federal Assembly of the Federal Republic of Yugoslavia, where he 
later became the SPS chief whip. He was elected in 2004 as a Member of 
the National Assembly of the Republic of Serbia, where he also headed 
the MP Group of the coalition rallied around the SPS. He was a Member 
of the parliamentary delegation of the National Assembly of the 
Republic of Serbia to the Parliamentary Assembly of the Council of 
Europe.
    In addition to performing parliamentary duties, Mr. Dacic held a 
number of governmental positions. He was an acting Minister of 
Information in the so-called transitional government of the Republic of 
Serbia from October 2000 to January 2001. From July 2008 to July 2012, 
he served as the First Deputy Prime Minister and Minister of Interior; 
from July 2012 to April 2014, as Prime Minister and Minister of 
Interior.
    From 27 April 2014 and onwards, Mr. Dacic was the First Deputy 
Prime Minister and Minister of Foreign Affairs. Apart from politics, 
Mr. Dacic's outside interests also include sports. He held the offices 
of President of Belgrade ``Partizan'' Basketball Club, Vice-President 
of the Yugoslav Olympic Committee, President of the Sport Association 
of Serbia.

                                 [all]

                                     

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today
</pre></body></html>
